NATIONAL ENDOWMENT FOR THE ARTS
OFFICE OF INSPECTOR GENERAL




                     EVALUATION REPORT
  Fiscal Year 2005 Evaluation of NEA’s Compliance with the
    Federal Information Security Management Act of 2002

                              REPORT NO. R-06-01
                               OCTOBER 4, 2005

The Federal Information Security Management Act of 2002 requires an annual evaluation
by the Inspector General on its agency’s security programs and practices. This report is
an evaluation of NEA’s security program and practices for protecting its information
technology (IT) infrastructure.


                                BACKGROUND
The Federal Information Security Management Act (FISMA) of 2002 was signed into
law on November 27, 2002. It replaces the Government Information Security Reform
Act (GISRA), which expired in November 2002. The Act requires each federal agency to
develop, document, and implement an agency-wide information security program to
provide information security over the operations and assets of the agency. This includes:

   •   Periodic risk assessments;
   •   Policies and procedures that are based on risk assessments;
   •   Subordinate plans for providing adequate information security for networks,
       facilities, information systems, or groups of information systems, as appropriate;
   •   Security awareness training to inform employees (including contractors) of the
       security risks associated with their activities and their responsibilities to comply
       with those agency policies and procedures designed to reduce those risks;
   •   Periodic testing and evaluation of the effectiveness of information security
       policies;
   •   A process for planning, implementing, evaluating, and documenting remedial
       action to address any deficiencies in the information security policies, procedures,
       and practices, of the agency;
   •   Procedures for detecting, reporting, and responding to security incidents; and



                                            1
   •   Plans and procedures to ensure continuity of operations of the agency’s
       information systems.


OMB Memorandum M-05-15, dated June 13, 2005, entitled “FY 2005 Reporting
Instructions for the Federal Information Security Management and Agency Privacy
Management,” updates instructions to Senior Agency Officials for Privacy, Chief
Information Officers and Inspectors General for reporting their 2005 information to
OMB.

The National Institute of Standards and Technology (NIST), which has the responsibility
for developing technical standards and related guidance, has issued numerous
publications including An Introduction to Computer Security: The NIST Handbook. This
publication explains important concepts, cost considerations, and interrelationships of
security controls as well as the benefits of such controls. NIST also has published a
Guide for Developing Security Plans for Information Technology Systems. In addition,
guidance is found in the Government Accountability Office publication, Federal
Information System Controls Audit Manual (FISCAM). NIST has recently issued
Special Publication 800-37, Guide for the Security Certification and Accreditation of
Federal Information Systems; Special Publication 800-53, Recommended Security
Controls for Federal Information Systems; and FIPS PUB 199, Standards for Security
Categorization of Federal Information and Information Systems.

NEA’s Office of Information and Technology Management (ITM) maintains and
operates two of three core systems on a local area network (LAN). These are the Grants
Management System (GMS), which contains information on grant applications and the
Automated Panel Bank System (APBS), which contains information on panelists who
review grant applications. NEA has contracted the Department of Transportation
Enterprise Service Center to host NEA’s Financial Management System (FMS) through
its Delphi Financial Management System. In addition, NEA operates support systems
including electronic mail and internet and intranet services.

The Chief Information Officer (CIO) is responsible for developing policies and
procedures to ensure that security is provided over NEA’s computer and data networks.


                         OBJECTIVE AND SCOPE
The objective of the evaluation was to determine the adequacy of NEA’s information
technology (IT) security program and practices. This included a review of NEA’s IT
security policies and procedures, interviews with responsible agency officials managing
the IT systems, and tests on the effectiveness of security controls.




                                            2
                            PRIOR EVALUATION
The NEA Office of Inspector General issued a report entitled “Fiscal Year 2004
Evaluation of NEA’s Compliance with the Federal Information Security Act of 2002”
(Report No. R-05-01) on October 5, 2004. The report recommended that NEA ITM
(1) develop written policies and procedures related to change management and control for
the development and modification of systems, and (2) establish a training plan that
includes periodic refresher IT security awareness training to all NEA employees.

Of the two recommendations in the prior evaluation, NEA has implemented the
recommendation related to change management. NEA has also established a training
plan that includes periodic refresher IT security awareness training to all NEA
employees, but had not provided any such training to NEA employees as of the time of
our evaluation in September 2005.


                          EVALUATION RESULTS
Our current evaluation determined that there are several issues that need to be addressed
by NEA’s Information and Technology Management Division. These include issues
related to security certification and accreditation, the replacement of Windows 2002
servers, and the implementation of periodic security training for all NEA employees.
Details are presented in the following narrative.


Risk Assessment
SeNet International Corporation was contracted to perform a risk assessment, the results
of which were issued on August 26, 2005. (See Appendix 1.) The review concluded,
“The implementation and management of the security architecture supporting the
National Endowment for the Arts enterprise network appears to require strengthening in
order to more effectively restrict unauthorized internal access to information resources.”

The review cited the following weaknesses at the time of their review:

     •   Systems were discovered that did not have the latest security patches,
     •   Systems were discovered running unnecessary or potentially vulnerable services,
     •   Weak passwords were identified, and
     •   Open shares were discovered where potentially sensitive information could be
         discovered.

NEA ITM has addressed these weaknesses in “The Security Audit Action Plan,” which is
included as Appendix 2. The only vulnerability remaining for corrective action relates to
systems that were discovered running unnecessary or potentially vulnerable services.
The solution is to replace the Windows 2000 systems with Windows 2003 Servers.


                                             3
According to NEA ITM officials, the new servers will be installed by
December 31, 2005.


NIST Self-Assessment
ITM used the National Institute of Standards and Technology (NIST) self-assessment
guide (Special Publication 800-26, “Security Self-Assessment Guide for Information
Technology Systems”) to review NEA’s systems in September 2005. The prior year’s
assessment noted that ITM must develop a written change management control policy
and procedures for the development and modification of its systems. Such policy and
procedures are important because any system changes can have security implications that
may introduce or remove vulnerabilities. Such a policy and procedures were developed
and implemented in December 2004.


Security Plan
NEA issued its security plan for each of its in-house GMS and APBS systems that
address FISMA and OMB requirements in September 2004. The development of
security plans are an important activity in an agency’s information security system that
directly supports the security accreditation process required under FISMA and OMB
Circular A-130. Security plans should ensure that adequate security is provided for all
agency information collected, processed, stored, or disseminated in NEA’s general
support systems and major applications.

        Security Certification and Accreditation. NEA hosts both the Grants
Management System (GMS), which contains information on grant applications and the
Automated Panel Bank System (APBS), which contains information on panelists who
review grant applications. NEA has contracted the Department of Transportation
Enterprise Service Center to host NEA’s Financial Management System (FMS) through
its Delphi Financial Management System. The two NEA-hosted systems were certified
and accredited on September 26, 2004.

The 2005 SeNet Report noted that three major systems were identified and granted the
Authority to Operate in November 2004. In their review of the Certification and
Accreditation (C & A) documentation, they stated “it appears that the process that was
used to perform the C & A does not meet established best practices or federal guidelines.
For example, the LAN is not even considered and a GSS (General Support System) was
not identified.” The SeNet report recommended that NEA create four separate C & A
packages.




                                            4
Disaster Recovery Plan
NEA has documented its disaster recovery plan (July 2002). The recovery plan provides
that:

   •   NEA will maintain an alternate e-mail address resident on a server outside of the
       NEA facilities to support emergency communications.

   •   An Emergency Recovery Server will be maintained within the building, but in a
       physical location distant from ITM to facilitate Level One and Level Two
       recoveries. It shall contain current software, updated nightly, that duplicates that
       which is in use by NEA.

   •   Standby network equipment will be maintained in a location outside of ITM to
       restore operations.

   •   At the end of every business day, two backup copies of all systems data will be
       taken. One will be stored outside of the building and one will be stored within the
       building, but outside of the Computer Center.


Security Training
ITM had previously documented a security-training plan (August 2002) for ITM staff and
contractors. The purpose of the plan was to ensure that NEA employees with significant
security responsibilities (1) have the most current computer security information and
(2) have an adequate understanding of computer/IT security laws and requirements.

NIST Special Publication 800-50, Building an Information Technology Security
Awareness and Training Program and NIST Special Publication 800-16, Information
Technology Security Training Requirements: A Role- and Performance-Based Model,
provide the standards for security awareness and training. It is noted that although new
NEA employees are given general security awareness training as part of their orientation,
NEA does not provide refresher IT security training to its employees on a regular basis.
ITM does send out periodic IT security awareness flyers and e-mails to its employees, but
NIST Pub 800-16 states that “awareness is not training.” We recommended in our 2004
evaluation that ITM establish a training plan that includes periodic refresher IT security
awareness training to all of NEA’s employees.

NEA ITM established a training policy in November 2004 that included a security
education plan. One of the subject areas of that plan was refresher training, which was
defined as “programs and products designed to provide continuing education to the
Agency community on relevant security topics. Such programs include annual briefings
through the Government Online Learning Center.” As of September 29, 2005, no such
refresher training has been offered to NEA employees. We recommend that NEA ITM
implement security awareness training to all NEA employees as soon as possible.

                                             5
Security Incidents
NEA has formalized a “Computer Security Incident Policy” (Revised November 2003),
which (1) identifies the type of activity characterized as a computer security incident, and
(2) defines the steps to be taken to report a computer security incident. The policy
applies to all permanent and temporary employees, including contractors who utilize
NEA’s computer equipment and systems.

Security incidents have generally become more frequent whether they are caused by
viruses, hackers, or software bugs. Appendix III to OMB Circular A-130 states:

       When faced with a security incident, an agency should be able to respond in a manner
       that both protects its own information and helps to protect the information of others who
       might be affected by the incident. To address this concern, agencies should establish
       formal incident response mechanisms. Awareness and training for individuals with
       access to the system should include how to use the system’s incident response capability.

All NEA computer security incidents are handled by ITM’s Computer Security Incident
Team (CSIT), which consists of two employees from ITM’s Customer Services Division
and two employees from ITM’s Plans, Policy and Programs Division. One employee,
who is designated as the CSIT coordinator, serves as the team’s central resource for
monitoring computer security incidents.

NEA’s policy states, “Any employee or contractor who has knowledge of a computer
security incident should report the incident to the CSIT Coordinator via e-mail (or phone
if e-mail is not available).”

Our 2003 evaluation recommended that NEA revise its computer incident security policy
to reflect FedCIRC timeframe requirements for security incident reporting. A revised
computer incident policy was issued in November 2003 and established timeframes for
reporting security incidents to FedCirc.

Despite numerous attempts to intrude NEA systems during the past year, there were no
successful incidents referred by employees to NEA ITM officials within the context of
NEA’s Computer Security Incident Policy.


Access Controls
ITM developed and implemented an “Access Control Policy” in December 2001 that
established procedures for removing terminating employees’ user IDs and passwords for
the LAN, e-mail and mission critical systems. ITM also developed and implemented
procedures applicable to employees terminating their NEA employment that specifically
note the steps required to clear applicable user IDs and passwords.

NIST recommends periodic reviews of user account information for managing user
access. NEA does have controls in place that requires LAN users to change their

                                                   6
passwords every 60 days and ensures that intruders (those who make numerous attempts
to access the LAN) are locked out of the system after four attempts to log in with an
invalid password.

Our 2002 evaluation noted that ITM was not always notified when school interns leave
NEA. These are students who work during the summer or break periods, but are not paid
by NEA. Since NEA does not pay the interns, there was no means to ensure that exit
clearance procedures were followed (such as withholding their final pay). In addition,
the supervisors of these interns were not always informing ITM of their departure
because there was no requirement for such. Thus, these interns could potentially
continue to access and use the e-mail system from an alternate location for unauthorized
purposes. As a result, NEA instituted new sign-out procedures for interns, temporary
contractors and volunteers. However, our 2003 evaluation found that ITM was still not
being informed timely about such individuals. Although ITM has requested departure
dates from the Human Resources Division for these temporary employees, the dates were
not always provided. We recommended that ITM not initiate computer or e-mail access
unless a departure date is provided.

As a result, the “Access Control Policy” was revised in November 2003 to include that
“before computer access can be granted to temporary employees/contractors, the Human
Resources Division must inform ITM of the anticipated end dates for these individuals’
assignments in order to ensure that their access rights are removed at the appropriate
time.” The SeNet report noted that weak passwords were identified and NEA ITM
immediately implemented a stronger password policy.


Physical Controls
NEA appears to have adequate physical controls to protect its IT inventories and supplies.
The facilities are protected by fire alarms and sprinkler systems. Access to NEA’s space
in the building is controlled by guards who require proper identification for entry.
During nonworking hours, sign-in and sign-out procedures are in effect. The computer
data room has cipher locks to restricted areas and this entire area is secured and locked
from 7:30 PM to 6:30 AM on weekdays and throughout the weekend.

If NEA contracts for IT services that requires access to its computer data room, the access
code (via a cipher lock) that is used by the contractor is different from the code used by
NEA ITM employees. In addition, the contractor’s access code is changed whenever one
of the contractor’s operators is terminated.



Inventory Controls
NEA has conducted a physical inventory of its hardware and has updated its inventory
listing (dated September 12, 2005). The inventory lists the item by office, barcode
number, serial number, manufacturer, model number and description, as well as the user.

                                            7
The inventory is maintained on a perpetual basis and is updated as equipment is added or
deleted.


Contractor Security
NEA appears to have imposed adequate security measures on its contractors. All short-
term (data entry) contractors have limited computer access. That is, they do not get a full
menu upon login and are limited on what they can input into the system, which is
restricted by their user name and password. For example, they cannot access or input
data into any systems management function. They also do not have internet or intranet
access. Since the contracts are short-term, users are deleted from the system upon
contract termination.

Computer access for a contractor involved with NEA systems and the help desk generally
is unrestricted. However, the CIO and ITM carefully screen these contractors and require
background checks.


Financial Management System
NEA has an agreement with the U.S. Department of Transportation (DOT) to utilize the
Enterprise Service Center’s Oracle Federal Financials System, Delphi, as their financial
management system. As part of our evaluation, we reviewed the DOT Office of
Inspector General (OIG) “Quality Control Review of the Report on Controls over the
Delphi Financial Management System, DOT” (Report No. QC-2005-075 dated
September 2, 2005). The audit itself was performed by performed by Clifton
Gunderseron, LLP, an independent auditor. The DOT OIG performed a quality control
review of Gunderson’s work to ensure that it complied with Generally Accepted
Government Auditing Standards and the American Institute of Certified Public
Accountants Statement on Auditing Standards (SAS) 70. In the opinion of the DOT OIG,
the audit work complied with applicable standards.

The independent auditor’s report made 12 recommendations to improve controls and
submitted the recommendations to DOT management. The DOT Deputy Chief Financial
Officer concurred with the recommendations and committed to implementing corrective
actions in a response dated August 25, 2005.


                             EXIT CONFERENCE
An exit conference was held with NEA’s CIO on October 4, 2005. The CIO generally
concurred with our recommendations and has agreed to initiate corrective actions.




                                             8
                          RECOMMENDATIONS

We recommend that the NEA Office of Information and Technology Management:


   1. Review the certification and accreditation process for deficiencies identified in the
      SeNet Vulnerability Analysis Report and take appropriate corrective actions.

   2. Ensure that the Windows 2003 servers are installed in a timely manner.

   3. Implement security awareness training for all NEA employees.




                                            9
                                               APPENDIX 1
                                                 Page 1 of 3




        Vulnerability Assessment




            August 26, 2005



                Prepared by:



            SeNet International Corporation
            e-Security—we make it practical.




Note: The Office of Inspector General has
included only the “Executive Summary” of this
report for this Appendix.




                       10
                                                                           APPENDIX 1
                                                                              Page 2 of 3


                             1. Executive Summary

The implementation and management of the security architecture supporting the National
Endowment for the Arts (NEA) enterprise network appears to require strengthening in
order to more effectively restrict unauthorized internal access to information resources.
Through the performance of the network security assessment, SeNet discovered that NEA
has implemented some effective controls for protecting information resources. However,
several areas were identified where NEA can improve upon its security architecture to
further enhance its overall security posture. Implementing strong computer security is
extremely important for organizations of all sizes.

SeNet last performed a vulnerability assessment for NEA in 2002. Since that time NEA
has made some marked improvements in its protection of information resources,
especially in the areas of documentation and external perimeter security. When SeNet
last performed the review, documentation was severely lacking. Currently NEA has
compiled documentation covering the primary security topics. While this is a step in the
right direction there is still more work to do in this area. For example, the C&A package
that was reviewed does not follow all of the standards and format that NIST recommends.
Likewise, when SeNet last performed vulnerability testing from an external perspective
some serious findings were noted. During this round of external testing no critical
findings were noted.

When SeNet began the internal testing some serious findings were discovered. Through
a combination of vulnerabilities the SeNet team was able to compromise several systems
and even gain control of the firewall. The majority of these vulnerabilities were related
to un-patched systems, unnecessary services, and weak passwords. The vulnerabilities
SeNet did find and exploit can all be fixed with minimal financial outlay, but do require
time and trained personnel.

The areas of concern noted during the network security assessment contain several
high-risk vulnerabilities as well as several medium to low risk vulnerabilities. The
more serious vulnerabilities are discussed below; all other vulnerabilities appear in
the “Detailed Findings and Recommendations” section and in Appendix A of this
report:

Vulnerabilities

   •   Systems were discovered that did not have the latest security patches
   •   Systems were discovered running unnecessary or potentially vulnerable services
   •   Weak passwords were identified
   •   Open shares were discovered where potentially sensitive information could be
       discovered




                                           11
                                                                              APPENDIX 1
                                                                                Page 3 of 3


It is suggested that NEA follows these recommendations:

   •   Apply the latest security patches
   •   Review all services that are enabled and disable those that are not needed
   •   Enforce the use of strong passwords on all accounts
   •   Review all shares and require authentication

For a complete listing of all recommendations please see Appendix A. Also see the
discussion in Section 3 of this report.

NEA management should be aware that due to the potential risk associated with
connectivity to the Internet, and the regularity in which new vulnerabilities are identified
with information technology, results of test procedures performed may not have revealed
all potential vulnerabilities.




                                             12
                                                                          APPENDIX 2



                      The Security Audit Action Plan
Some of the vulnerabilities SeNet found were corrected with minimal financial outlay.


                                   Vulnerabilities
Vulnerability: Systems were discovered that did not have the latest patches.

       Completed Solution: The latest service patches were applied, and it is resolved
                           that once a month the latest patches will be applied to
                           each networked system.


Vulnerability: Systems were discovered running unnecessary or potentially vulnerable
services.

       Solution:               The systems discovered were Windows 2000 systems that
                               will be replaced with Windows 2003 Servers. This
                               replacement will eliminate the potentially vulnerable
                               services.


Vulnerability:        Weak passwords were identified.

      Completed Solution:      Enforced the use of strong passwords on all accounts thru
                               Directory Services and the password policy.


Vulnerability: Open shares were discovered where potentially sensitive information
could be discovered.

       Completed Solution: This open share happens to be the Unix Xerox machine
                           connected to our network. Disconnecting the copier
                           eliminated this problem.




Note: The above Security Audit Action Plan was prepared by NEA ITM.




                                          13
